Department of Homeland Security
   Ofﬁce of Inspector General

            Improvement Needed in FEMA's 

   Management of the National Flood Insurance Program's 

          Information Technology Transition 





OIG-10-76                                       March 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                 March 31, 2010

                                     Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses challenges in the Federal Emergency Management Agency’s
National Flood Insurance Program’s information technology transition. It is based on
interviews with employees and officials, contractors, and a review of applicable
documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report




                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................4 


     Misplaced Allegiance of FEMA Employees .................................................................4 

     Recommendation ...........................................................................................................6 

     Management Comments and OIG Analysis ..................................................................6 


     Better Coordination Needed Among the Mitigation Directorate, Office of the 

     Chief Information Officer, and the Acquisition Management Division ........................7 

     Recommendation .........................................................................................................10 

     Management Comments and OIG Analysis ................................................................10 


     Contract Management Interference..............................................................................11 

     Recommendation .........................................................................................................12 

     Management Comments and OIG Analysis ................................................................12 


     Leadership Challenges in FEMA’s Mitigation Directorate .........................................13 

     Recommendation .........................................................................................................14 

     Management Comments and OIG Analysis ................................................................14 



Appendices

     Appendix A:           Purpose, Scope and Methodology........................................................15 

     Appendix B:           Management Comments to the Draft Report .......................................16 

     Appendix C:           Major Contributors to this Report........................................................19 

     Appendix D:           Report Distribution ..............................................................................20 


Abbreviations

     CONOPS                Concept of Operations 

     COTR                  Contracting Officer’s Technical Representative 

     CSC                   Computer Sciences Corporation 

     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     FISMA                 Federal Information Security Management Act 

     IBM                   International Business Machines 

     ISSO                  Information System Security Officer 

     IT                    Information Technology              

     NFIP                  National Flood Insurance Program

     OIG                   Office of Inspector General 

     OST                   Optimal Solutions and Technologies 

     PM                    Project Manager             

     SOR                   System of Record 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   At the request of the Federal Emergency Management Agency
                   (FEMA), we reviewed the Mitigation Directorate’s management
                   and oversight of the National Flood Insurance Program’s transition
                   from its legacy information technology contractor, Computer
                   Sciences Corporation (CSC), to a new contractor, Optimal
                   Solutions and Technologies (OST). Although scheduled for 2008,
                   the transition has yet to be completed.

                   The misplaced allegiances of key Directorate employees hampered
                   the performance of both contractors. A former OST employee was
                   chosen by FEMA to oversee OST’s contract performance. In
                   addition, approximately 14 former CSC employees worked in the
                   Mitigation Directorate. The apparent inability of these employees
                   to leave behind past alliances led to a divide within the Directorate
                   and prevented an honest assessment of the status of NextGen and
                   the transition.

                   The Mitigation Directorate attempted to develop an information
                   technology system without the involvement of the Chief
                   Information Officer, resulting in a system unable to meet FEMA’s
                   security and technical requirements. A lack of coordination with
                   the Acquisition Management Division led to payment for an
                   unproven system.

                   Mitigation Directorate officials gave orders to the contractors
                   without the involvement of contracting personnel. This
                   undermined the contracting officer’s ability to enforce the terms of
                   the written agreements between the contractors and FEMA.

                   The current acting assistant administrator for the Mitigation
                   Directorate admitted knowing little about information technology,
                   the status of the transition or agency security requirements. For
                   too long he relied on subordinates rather than seek assistance from
                   the Chief Information Officer and the Acquisition Management
                   Division.

                   We made four recommendations to improve FEMA’s oversight of
                   information technology systems. FEMA agreed in part with one
                   recommendation and in principle with the remaining three.

           Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                           1
Background
                             The U.S. Congress established the National Flood Insurance
                             Program (NFIP) in 1968 in response to severe flooding following a
                             series of hurricanes in 1963, 1964, and 1965. 1 The key policy
                             objectives of the NFIP were to: (1) reduce the Nation’s flood risk
                             through floodplain management; (2) improve flood hazard data and
                             risk assessment by mapping the Nation’s floodplains; and (3) make
                             affordable flood insurance widely available in communities that
                             adopt and enforce measures that make future construction safer
                             from flooding. FEMA’s Mitigation Directorate manages the NFIP
                             and a range of mitigation programs designed to reduce future
                             losses associated with disasters.

                             The private sector participates actively in the NFIP by writing and
                             servicing flood insurance policies, developing and maintaining the
                             information technology (IT) infrastructure, identifying and
                             mapping special flood hazard areas, and providing technical and
                             consultative support to states and communities. FEMA has
                             agreements with more than 80 insurance companies to sell and
                             service flood insurance through the “Write Your Own” program.
                             As of August 2009, there were 20,000 participating communities
                             and more than 5.5 million active policies in the United States.

                             The NFIP policy and insurance data generated nationally by the
                             Write Your Own program insurance companies is collected and
                             reconciled by FEMA’s Bureau and Statistical Agent. Beginning in
                             1983, the administration of the Bureau and Statistical Agent, along
                             with other NFIP services such as IT, training, customer service,
                             and marketing, had been provided by one contracting entity
                             Computer Sciences Corporation (CSC). CSC is a large publicly
                             traded company with an extensive history of supporting federal
                             contracts.

                             From 1999 2002, FEMA, with assistance from Booz Allen
                             Hamilton, developed a blueprint for modernizing the NFIP’s future
                             operations (Concept of Operations (CONOPS)). The CONOPS
                             and ideas generated at meetings among government and industry
                             professionals determined the requirements for the NFIP’s new IT
                             system, known as NextGen. Optimal Solutions and Technologies
                             (OST) was awarded a contract in 2003 to develop NextGen, a
                             government owned system to be utilized by the NFIP, Write Your
                             Own program insurance companies, and federal contractors.


1
    The National Flood Insurance Act of 1968 (P.L. 90-448, Title XIII), codified in 42 U.S.C. 4001 et seq.

                  Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                                       2
                          During the life of its contract, OST was to develop multiple
                          stakeholder program functions for NextGen. This new system was
                          designed to replace the legacy system of record (SOR) 2 operated
                          by CSC, which was scheduled to be retired in October 2008. The
                          new system would provide stakeholders with a web-based interface
                          through which data could be easily entered and queried. During
                          development of NextGen, CSC continued to administer and
                          support the multiple NFIP activities.


                                NFIP IT Services Timeline
                                                 (1968     2007)
        1968
                 Congress establishes the National Flood Insurance Program (NFIP)

        1983
                 FEMA contracts with CSC to provide multiple NFIP services

        1999 – 2003
                 FEMA reengineers the NFIP’s concept of operations plan
                 Based on the concept of operations plan, FEMA contracts with OST to develop new IT
                 system called NextGen

        2006 – 2007
                 CSC provides OST with data to assist OST with the development of NextGen
                 FEMA hires former OST NextGen Project Manager (PM) as the Information System
                 Security Officer for both CSC and OST
                 FEMA accepts and pays $40 million for NextGen conception and development
                 Former OST NextGen PM becomes COTR for IT services contract with OST
                 FEMA contracts with Apptis, an IT firm, to conduct IT evaluation of NextGen
                 FEMA announces plans to break up CSC legacy NFIP contract into multiple components
                 when current contract expires

        Source: FEMA, CSC, and OST


                          In 2007, the Bureau and Statistical Agent contract came up for
                          renewal. In an effort to increase the use of small businesses in
                          DHS, FEMA re-competed the previously large Bureau and
                          Statistical Agent contract portfolio (CSC was the sole contractor)
                          as multiple separate contracts, including the Bureau and Statistical
                          Agent, information technology services, training, and call center
                          services. The latter three were set aside for small businesses, and
                          OST was awarded the IT services contract. OST is a small,

2
 A system of record is an information storage system which is the authoritative data source for a given
piece of information. In the case of the NFIP, output data is collected from multiple insurance companies
and other stakeholders, and then reprocessed and re-presented in reports for FEMA, Congress, and other
NFIP stakeholders.

               Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                                     3
                           minority owned IT firm, founded in 1999. As a result of this
                           award, OST assumed responsibility for transitioning the SOR from
                           the legacy system run by CSC to NextGen, the new IT system that
                           had been developed by OST under its 2003 contract. During an
                           agreed-upon period, CSC was to work with NFIP staff and OST
                           personnel to transition historic NFIP data from the CSC IT systems
                           to NextGen.


Results of Review

         Misplaced Allegiance of FEMA Employees
                           The misplaced allegiance of many FEMA employees in the
                           Mitigation Directorate hampered the performance of both
                           contractors involved in the transition to a new IT system.

                           In 2006, the NFIP Program Office (Program Office) hired an OST
                           employee who had worked for several years on the development of
                           NextGen. In 2007, this employee served as a non-voting, IT
                           advisor to the panel selecting the contractor to provide program
                           management and insurance services in support of the NFIP. This
                           person’s former employer, OST, was one of the bidders and was
                           awarded the contract.

                           After the expiration of one year of employment at FEMA, 3 the
                           former OST employee was selected by the Program Office to be
                           the contracting officer’s technical representative (COTR) for the
                           OST contract (hereafter, the former OST employee will be referred
                           to as the OST COTR). As the OST COTR, he was responsible for
                           ensuring adherence to contract terms, timely and acceptable
                           deliverables, and payment upon satisfactory completion of
                           services. COTRs report to contracting officers and serve as their
                           eyes and ears. A FEMA COTR’s sole allegiance must be to
                           FEMA and he must be willing to advise the contracting officer
                           when problems arise with a contractor’s services. However, the
                           line between the OST COTR’s allegiance to FEMA and OST
                           became blurred and may have delayed the Program Office’s
                           realization that NextGen was unable to become the SOR as
                           scheduled. For example, the OST COTR misrepresented to staff
                           the results of an independent IT analysis of NextGen in March
                           2008, portraying the findings more favorably than actually

3
 5 CFR 2635.502 provides standards of ethical conduct for federal employees and prohibits their
participation in certain activities involving past employers until one year has elapsed since that
employment.

               Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                                     4
                            reported. As recently as spring 2009, the OST COTR asserted that
                            the analysis indicated the NextGen transition could occur with
                            minimal risk and demonstrated that OST had successfully
                            delivered the required systems. However, the 2008 report on
                            NextGen concluded:

                                The requirement (business logic) documentation is not
                                complete,
                                The system is not fully tested, and
                                Full Unit Testing should be conducted to find any additional
                                latent defects prior to implementation.

                            Additionally, he assured Program Office personnel that NextGen
                            was ready to become the SOR for the NFIP, knowing that the
                            system lacked an “Authority to Operate,” an approval from
                            FEMA’s IT Security Office that is required before an IT system
                            becomes operational. 4 The OST COTR was aware of this security
                            requirement. Lastly, the OST COTR failed to advise the
                            contracting officer when contract milestones were not met, a
                            possible breach by OST of contract terms. OST was unable to
                            transition NextGen as the SOR for the NFIP as scheduled in May
                            and October 2008, nor in 2009, but the OST COTR did not alert
                            the contracting officer to these missed milestones, and the first
                            cure notice to OST was not issued until July 2009.

                            The problem of misplaced allegiance extended beyond the issues
                            associated with the OST COTR. Approximately 14 former CSC
                            employees also worked at different levels of management in the
                            Program Office. According to the FEMA employees we
                            interviewed, these former CSC employees and other FEMA
                            officials referred to CSC as “we” at internal meetings; told an
                            acquisition official that OST had to “prove itself;” shared internal
                            communications with CSC employees; and when disputes arose
                            between FEMA and CSC, took the side of CSC.

                            Without exception, interviewees voiced concern that the Program
                            Office had split into two camps, those favoring CSC and those
                            favoring OST. The risk insurance portion of the NFIP is a niche
                            program which involves a small group of government staff,
                            contractor employees, and public stakeholders. Contractor and
                            stakeholder employees are often hired by FEMA, and some FEMA
                            employees leave to work in NFIP-related activities in the private
                            sector. FEMA staff treat this “revolving door” with little concern
                            for the divisive atmosphere it generates. Recently, and possibly as

4
    DHS Sensitive Systems Policy Directive 4300A, Version 7.0, July 31, 2009.

                 Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                                     5
          a result of this review, FEMA removed the former OST employee
          from his COTR responsibilities.

          Conclusion

          The apparent inability of some FEMA employees to leave behind
          past alliances with private industry, and favoritism for the legacy
          contractor that grew over several decades, may have impeded the
          timely completion of contract services. Because NextGen did not
          become the SOR as scheduled, FEMA needed CSC to continue to
          operate the legacy NFIP IT system for an additional year, at a cost
          of more than $7.2 million. Additionally, FEMA engaged
          International Business Machines (IBM) to analyze NextGen’s
          readiness; IBM’s initial work cost FEMA $388,000. On
          November 18, 2009, FEMA terminated the OST contract for
          convenience. This action will save the government a sum
          indeterminable at this time, and will decrease the cost of the delay
          discussed above.


  Recommendation:
          We recommend that the Administrator, Federal Emergency
          Management Agency:

          Recommendation #1: Require that all employees involved in the
          procurement process receive annual procurement-specific ethics
          training and file financial disclosure forms. Employees involved in
          the procurement process include contracting officer’s technical
          representatives and members of, and advisors to, source selection
          boards. Although ethics training is not required to be conducted in
          person, we believe the training would be most effectively delivered
          in person by the FEMA Ethics Office, to enable active
          participation in a class specifically tailored to the Program Office’s
          needs.


  Management Comments and OIG Analysis
          The Office of Policy and Program Analysis concurred in principle
          with this recommendation. It states that all FEMA employees
          receive ethics training and those regularly working with
          contractors are required to take additional training geared toward
          procurement and other related ethics issues that arise when federal
          employees and contractors interact in the federal workplace. The
          Office further states that requiring all employees involved in the

Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                   6
                          procurement process to file financial disclosure forms would be
                          overly burdensome to reviewing officials and that the current
                          requirement covering all employees who make substantive
                          decisions in the procurement context is adequate. We disagree
                          with this limitation, but agree that the contracting officer’s
                          technical representatives and task monitors not currently serving in
                          those capacities can be excluded from the requirement until
                          assigned to a contract.

        Better Coordination Needed Among the Mitigation Directorate,
        Office of the Chief Information Officer and the Acquisition
        Management Division
                          For many years, FEMA program offices had their own IT staff and
                          budgets, and developed IT systems without input or guidance from
                          Acquisition Management or the Office of the Chief Information
                          Officer. The development of the NextGen system is an example of
                          an IT system developed by a program office outside the purview of
                          the Chief Information Officer. 5 The Program Office’s failure to
                          work with the Chief Information Officer and Acquisition
                          Management staff as strategic partners in the acquisition and
                          development of NextGen resulted in the waste of approximately
                          $7.5 million and delayed the implementation of a system intended
                          to provide up-to-date data needed by the NFIP’s stakeholders.

                          The Federal Information Security Management Act (FISMA)
                          requires federal agencies to demonstrate to the Office of
                          Management and Budget that its IT systems are compliant with IT
                          security standards and requirements. Before FEMA allows an IT
                          system to become an SOR, collecting, maintaining, and reporting
                          personal data, the system must be tested and be shown to include
                          controls that will protect private and sensitive information. A
                          system that is certified and approved is given an Authority to
                          Operate by the FEMA Office of the Chief Information Officer.

                          In 2007, the CSC legacy system was found to have deficiencies,
                          but was accredited and allowed to operate. The IT Security Office
                          had few staff and many systems to test, and put its efforts
                          elsewhere. In preparation for the next FISMA report, CSC’s

5
  DHS Management Directive 0007.1, Information Technology Integration and Management, issued March
15, 2007, requires the Chief Information Officer, in conjunction with the Chief Procurement Officer, to
review and approve IT acquisitions in excess of $2.5 million. Office of Management and Budget Circular
A-11, Part 7, Section 300, Planning, Budgeting, Acquisition, and Management of Capital Assets,
establishes policy for planning, acquisition and management of major information technology investments.
These policies, if followed, should eliminate problems created by FEMA Program Offices attempting to
develop IT systems on their own.

               Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                                   7
          legacy system was reviewed and again found inadequate.
          Documentation supporting processes did not stand up to testing.
          An IT Security official said she believes that the legacy system did
          not include the necessary controls because Program Office
          personnel did not have the IT expertise necessary to ensure
          required controls in the system, and no assistance from FEMA’s IT
          Security Office was ever sought. This official claimed that for
          years there was friction between FEMA’s Chief Information
          Officer and the Mitigation Directorate.

          The development of NextGen began in the Program Office in
          2003, and the FEMA Chief Information Security Officer said that
          she did not learn of the existence of NextGen until the Program
          Office sought an Authority to Operate in 2008. Believing initially
          that NextGen was going to become the SOR for the NFIP in late
          2008, the IT Security Office was prepared to allow CSC’s legacy
          system’s Authority to Operate to expire in October of that year.
          However, it became apparent that NextGen was not ready to
          become the SOR, and NFIP officials asked that the CSC legacy
          system be permitted to operate instead. NextGen was then
          removed from the 2008 list of operating IT systems and placed in
          the development queue.

          Program Office Management of an IT System

          At the request of the OST COTR, the IT Security Office began the
          certification and approval process for NextGen in early 2009. The
          process consists of a review of system documentation and testing.
          IT Security Office staff who reviewed the documentation noted
          that some of the data fields only contained the words “to be
          determined,” evidence that NextGen was not ready to be the SOR.
          The Program Office and Acquisition Management, working
          without assistance from the Office of the Chief Information
          Officer, paid $40 million to conceptualize and develop NextGen
          without testing the system to see if it performed according to the
          contract requirements.

          Additionally, the NFIP IT Consensus document supporting the
          award to OST indicates the evaluation team considered the
          development of NextGen a “strength,” even though the document
          provides no evidence that NextGen was tested and found to
          provide accurate, reliable data. Further, the Consensus document
          notes that OST’s proposal indicates an understanding of the
          importance of pilot testing, yet the evaluation team failed to
          request evidence that any testing had been conducted to date. The
          fact that NextGen remained unproven through 2009 raised

Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                   8
                  concerns regarding the thoroughness of acquisition planning,
                  monitoring of contracts, and the contract award process at FE
                                                                             FEMA.

                  In addition to his official duties on the OST contract, the OST
                  COTR sisim
                           multaneously served as a COTR and as an Information
                                                                         Information
                  System Security Officer (ISSO) for both the CSC CSC legacy and
                  NextGen systems.
                            systems. Section 2.1.8.e of DHS Directive 4300A,
                  Sensitive
                  Sensitive System
                            Systemss Policy Directive, states that ISSO
                                                                    ISSO duties shall
                                                                                shall
                  not be assigned
                         assigned as collateral duties
                                                 duties uun
                                                          nless app
                                                                approv
                                                                   roved
                                                                      ed by the
                  Com
                  Component
                       ponent Chief Information
                                      Information Security Officer. No such approval
                  was granted.


               NFIP IT Services Transition Timeline
                                        (2008    2009)
2008
       May:     NextGen originally scheduled to go live as SOR
       Oct.:    NextGen again scheduled to go live as SOR
       Nov.:    New Acting Federal Insurance Administrator of the Mitigation Directorate
                appointed
       Nov.:    NFIP managers commit to resolving all data integrity issues by 12/2008

2009
       Jan.:    NextGen still not ready
       Apr.:    Contracting Officer directs termination of the CSC or OST contract
       May:     Mitigation Directorate announces plans to terminate the OST contract
       Jun.:    FEMA Administrator overturns decision to terminate the OST contract
       Jul.:    DHS-OIG requested to evaluate NFIP IT services transition
       Aug.:    IBM requested to conduct technical evaluation of NextGen
       Oct.:    OST COTR relieved
                               ieved of his duties
       Nov.:    OST IT servic
                        services
                              es contract terminated

Source: FEMA, CSC, an
                   and OST
                       OST

                  The NFIP IT legacy system was to be replaced by the new
                  NextGen system first in May 2008, then October 2008, and then in
                  2009. As of the writing of this report, the legacy system remains
                  the SOR. Because the ability of NextGen to operate as required
                  was uncertain, FEMA contracted with IBM to conduct an
                  independent technical assessment of NextGen. To date, an
                  assessment of the system’s documented requirements has cost
                  FEMA more than $388,000. The initial finding from IBM is that
                  OST did not document the requirements, and the requirements
                  provided by the Program Office to OST were poorly defined and
                  need to be rewritten before further development of the IT system.



       Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                            9
          Conclusion

          Because the Program Office did not work jointly with Acquisition
          Management and the Office of the Chief Information Officer
          during NextGen’s development, FEMA was forced to continue the
          CSC contract for another year. Additionally, FEMA spent $40
          million for an IT system without determining if the system
          operated as required and paid more than $388,000 for the first step
          of a full assessment of the system.


  Recommendation:
          We recommend that the Administrator, Federal Emergency
          Management Agency:

          Recommendation #2: Ensure that the Acquisition Management
          Division and the Office of the Chief Information Officer work as
          strategic partners with program offices in developing information
          technology acquisition plans, and require the Office of the Chief
          Information Officer to test and approve all new information
          technology systems prior to acceptance by the contracting officer
          and final payment. This includes all future development and
          maintenance of NextGen, and other National Flood Insurance
          Program information technology systems.


  Management Comments and OIG Analysis
          FEMA’s response is only partly responsive. The recommendation
          requires all FEMA program offices to work with the Office of the
          Chief Information Officer and the Acquisition Management
          Division as strategic partners in developing information
          technology systems prior to acceptance by the contracting officer.
          Additionally, the recommendation includes any further
          development of NextGen. FEMA’s response only refers to further
          development of NextGen. Our recommendation was meant to
          cover all new FEMA information technology systems.




Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                  10
        Contract Management Interference
                          The NFIP Program Office within FEMA’s Mitigation Directorate
                          has undermined the authority of Acquisition Management, the
                          contracting officer’s handling of the NFIP-related contracts, and
                          his appointed technical representatives. As a result, the contracting
                          officer was unable to enforce the terms of the OST contract in
                          FEMA’s best interests.

                          During the latter portion of 2008, a new contracting officer was
                          appointed for the NFIP’s IT services contract (hereafter, the NFIP
                          contracting officer will be referred to as the Contracting Officer).
                          As such, he is the person within Acquisition Management having
                          oversight authority and managerial responsibility for FEMA’s
                          three NFIP services contractors, CSC, OST, and iServices. 6 To
                          assist the Contracting Officer and provide technical insights about
                          the NFIP, the Mitigation Directorate selected two federal
                          employees as COTRs, one for the legacy CSC and iServices
                          contracts, and one for the OST contract.

                          As noted earlier, the Mitigation Directorate has fractured into two
                          camps, those supporting the legacy contractor, CSC, and those that
                          support the developers of NextGen, OST. This organizational
                          division made managing the contracts difficult because the
                          Contracting Officer could not trust his COTRs to give him
                          objective insights into the companies’ abilities to perform under
                          the contracts. Additionally, the Program Office as a whole
                          undermined the Contracting Officer’s ability to act in FEMA’s best
                          interests when enforcing the terms of the contracts.

                          For example, according to the Contracting Officer and others,
                          Program Office staff participated in secretive meetings with CSC
                          and OST, outside the presence of the Contracting Officer or his
                          technical representatives. The acting assistant administrator and
                          his managers were giving orders to CSC and OST which could be
                          taken as oral modifications to the contract terms when only the
                          Contracting Officer had the authority to modify the contracts.
                          Even after the Contracting Officer instructed the Program Office’s
                          leadership to stop this practice, the meetings continued.

                          These unauthorized meetings undermined the authority of the
                          Contracting Officer and prevented him from determining if either
                          CSC or OST was in breach of their respective contracts and from

6
 iServices is a team of contractors led by OST as the prime contractor currently providing certain NFIP
services.

               Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                                    11
          issuing appropriate cure notices. The Contracting Officer also
          received conflicting reports from Program Office staff as to who
          was to blame for OST’s inability to take over responsibility for the
          NFIP IT system as scheduled. Many weeks went by while staff
          argued over whether CSC was undermining OST by refusing to
          provide data OST needed for the NFIP IT transition or whether the
          data was being provided as required, but the NextGen system was
          unable to accept it due to flaws in the NextGen system.

          Conclusion

          The Program Office’s unauthorized meetings with the contractors
          undermined the Contracting Officer’s ability to enforce the terms
          of the contracts. Additionally, the Program Office’s staff did not
          alert the Contracting Officer to possible lapses in contract
          performance. These actions contributed to the Contracting Officer
          terminating the OST contract for convenience of the government,
          rather than for default, resulting in additional expense to FEMA.


  Recommendation:
          We recommend that the Administrator, Federal Emergency
          Management Agency:

          Recommendation #3: Ensure that Mitigation Directorate staff
          receive annual training on the roles and responsibilities of the
          contracting officer, and the contracting officer’s technical
          representative. This training shall include instruction on
          appropriate interaction with contractor staff. For the same reasons
          set forth in Recommendation #1, we believe this training would be
          most effectively delivered in person by FEMA’s subject matter
          experts from the Ethics Office, the Acquisition Management
          Division, and other offices, as needed.


  Management Comments and OIG Analysis
          FEMA concurred in principle with this recommendation. Although
          FEMA is correct in saying that the review makes no findings
          indicating staff did not receive appropriate training, the behavior of
          trained staff in this matter indicates that the training should be
          reviewed and improved.




Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                  12
Leadership Challenges in FEMA’s Mitigation Directorate
              The current acting assistant administrator of the Mitigation
              Directorate has decades of experience in the insurance industry and
              the NFIP. He joined FEMA in March 1992 and worked for many
              years in the insurance area. In September 2008, he was appointed
              the acting federal insurance administrator, and as such, was the
              executive responsible for implementation of the new IT system.
              Subsequently, he was named the acting assistant administrator.

              The transition of NFIP IT services from the legacy to the new
              contractor was troubled prior to the current acting assistant
              administrator’s promotion. Staff was seen as favoring either CSC
              or OST. NextGen was developed, accepted and paid for without
              testing to ensure its viability. NextGen was supposed to become
              the system of record in May 2008 (and then October 2008), but the
              transition schedule was delayed because:

                  CSC and OST quarreled about data transference,
                  NFIP managers did not consider NextGen capable of producing
                  financial and actuarial reports acceptable to stakeholders, and
                  NextGen did not have an Authority to Operate on FEMA’s IT
                  network.

              The acting assistant administrator admitted to knowing little about
              IT, the status of the transition, or IT security requirements. He
              relied heavily on his managers and the OST COTR to keep him
              informed. At various meetings from October-December 2008, the
              OST COTR assured the acting assistant administrator that
              NextGen needed minor fixes, but some managers disagreed and
              questioned NextGen’s ability to provide the needed financial and
              actuarial reports. Because of these conflicting assessments, he
              sought advice from a FEMA employee knowledgeable about IT.
              The acting assistant administrator, however, came to distrust the
              input he was receiving, and finally decided to seek assistance
              outside the Mitigation Directorate, contacting the FEMA Chief
              Information Officer. They were not able to meet until January
              2009.

              It was not until meeting with the Chief Information Officer that the
              acting assistant administrator learned what an Authority to Operate
              was, and that the legacy IT system’s Authority to Operate had
              expired. Additionally, he was unaware of multiple duties assigned
              to the OST COTR in violation of DHS IT security policy. While
              seeking outside IT assistance, the acting assistant administrator
              should have also consulted with Acquisition Management to assess

    Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                      13
          whether breaches of the OST contract had occurred and how to
          hold OST accountable for the missed milestones.

          In April 2009, the Contracting Officer told the acting assistant
          administrator that Acquisition Management refused to have
          contracts with two contractors providing parallel services. Given
          no alternative, the Mitigation Directorate planned to not exercise
          the upcoming OST contract option and notified OST accordingly.
          However, FEMA management intervened and instructed the
          Director of Acquisition Management to overrule the acting
          assistant administrator and continue the services of both
          contractors for an additional year while FEMA attempted to sort
          out the status of the NFIP IT transition.

          Conclusion

          In part due to the acting assistant administrator’s overreliance on
          others, a critical opportunity to bring all parties together to assess
          the situation and determine a path forward was lost. Had the
          acting assistant administrator enlisted guidance from FEMA
          management, Acquisition Management, and the Chief Information
          Officer sooner, some amount of taxpayer money may have been
          saved.


  Recommendation:
          We recommend that the Administrator, Federal Emergency
          Management Agency:

          Recommendation #4: Require the Mitigation Directorate to hire
          an independent, unbiased program manager to oversee the
          development, testing, and implementation of a new information
          system for the National Flood Insurance Program, including the
          requirements in the Statement of Work.


  Management Comments and OIG Analysis
          FEMA concurred in principle with this recommendation. FEMA
          asserts that whether an unbiased and independent program
          manager is hired or appointed, and to whom this person reports,
          needs further consideration. Any further delay in naming the
          program manager will be detrimental to the National Flood
          Insurance Program.


Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                  14
Appendix A
Purpose, Scope, and Methodology

                     FEMA asked us to conduct a review to provide suggestions for
                     immediate improvement in the management and oversight of the
                     NFIP’s transition to a new information technology system.

                     We interviewed FEMA officials and both contractors involved in
                     the transition, and reviewed DHS and FEMA rules and regulations
                     that were relevant to this audit. We performed fieldwork at DHS
                     facilities in the Washington, DC area.

                     We began our review in July 2009 and completed it in November
                     2009.

                     We performed our work under the authority of the
                     Inspector General Act of 1978, as amended, in accordance with
                     Quality Standards for Inspections, issued by the Council of
                     Inspectors General for Integrity and Efficiency, January 2005.

                     We appreciate the efforts by DHS management and staff to provide
                     the information and access necessary to accomplish this review.




           Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                             15
Appendix B
Management Comments to the Draft Report




          Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                            16
Appendix B
Management Comments to the Draft Report




          Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                            17
Appendix B
Management Comments to the Draft Report




          Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                            18
Appendix C
Major Contributors to this Report

                     Donald Bumgardner, Director
                     Polin Cohanne, Sr. Program Analyst
                     Aaron Naas, Program Analyst
                     Trudi Powell, Audit Manager




           Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                             19
Appendix D
Report Distribution

                      Department Of Homeland Security
                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Chief Information Officer
                      Chief Information Security Officer
                      Under Secretary for Management
                      FEMA Audit Liaison (10-150-EMO-FEMA)

                      Office of Management and Budget
                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress
                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Improvement Needed in FEMA’s Management of the NFIP’s IT Transition

                                             20
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
